HHS/OIG-Audit--"Follow-Up Review of the Health Care Financing Administration's Resolution of Improper Medicaid Claims for Patients Residing in Institutions for Mental Diseases, (A-02-99-01031)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Review of the Health Care Financing Administration's Resolution of Improper Medicaid Claims for Patients
Residing in Institutions for Mental Diseases," (A-02-99-01031)
January 4, 2001
Complete
Text of Report is available in PDF format (1.12 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final follow-up report points out that the Health Care Financing Administration's (HCFA) resolution actions were
not adequate for 3 of 4 recommendations made in a prior report on improper Medicaid claims made by New York for patients
residing in institutions for mental diseases. As a result, New York continued making such claims, which totaled approximately
$19.6 million (Federal share) from January 1, 1991 through December 31, 1999. During our audit, New York implemented edits
and controls which, if maintained, will prevent future improper claims. We recommended that HCFA issue New York a disallowance
for the $19.6 million and instruct New York to compute and refund the Federal share of any unallowable claims made after
December 31, 1999. The HCFA concurred.